No. 19-797
IN THE

Supreme Court of the United States
CITY OF ST. LOUIS, MISSOURI,
AND DOC’S TOWING, INC.,
Petitioners,
v.
MARY MEIER,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
RESPONDENT’S BRIEF IN OPPOSITION
GREGORY G. FENLON
601 S. Lindbergh
St. Louis, MO 63131
(314) 862-7999
ggfmoatty@aol.com

MICHAEL T. KIRKPATRICK
Counsel of Record
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
mkirkpatrick@citizen.com

Attorneys for Respondent
February 2020

i
QUESTIONS PRESENTED
The St. Louis Metropolitan Police Department
caused the warrantless seizure of a vehicle suspected
of involvement in a hit-and-run accident and, with the
cooperation of a private towing company, held the
vehicle for six weeks to try to leverage an interview
with a suspect. The owner of the vehicle brought an
action under 42 U.S.C. § 1983 against the City of St.
Louis and the towing company alleging that the
defendants’ prolonged seizure of her vehicle without a
warrant violated her rights under the Fourth and
Fourteenth Amendments. The questions presented
are:
1. Whether a municipality with a policy of seizing
vehicles without a warrant and holding them for an
extended period as an investigative tool can be liable
for violating the Fourth and Fourteenth Amendments.
2. Whether a municipality can be liable for
constitutional violations carried out with the
assistance of a non-governmental actor.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
TABLE OF CONTENTS ............................................. ii
TABLE OF AUTHORITIES ...................................... iii
INTRODUCTION ....................................................... 1
STATEMENT .............................................................. 2
REASONS FOR DENYING THE WRIT .................... 6
I. The decision below does not conflict with the
decision of any other court. ................................... 6
II. The Eighth Circuit’s determination that the
City of St. Louis might be liable under Monell
does not warrant review. ..................................... 10
CONCLUSION.......................................................... 13

iii
TABLE OF AUTHORITIES
Cases

Pages

Bell v. City of Chicago,
835 F.3d 736 (7th Cir. 2016) ........................... 9, 10
Chambers v. Maroney,
399 U.S. 42 (1970) ................................................. 8
City of Oklahoma City v. Tuttle,
471 U.S. 808 (1985) ............................................. 12
City of St. Louis v. Praprotnik,
485 U.S. 112 (1988) ............................................ 12
Florida v. White,
526 U.S. 559 (1999) ............................................... 8
G.M. Leasing Corp. v. United States,
429 U.S. 338 (1977) .............................................. 8
Monell v. Department of Social Services of City of
New York,
436 U.S. 658 (1978) ....................................... 10, 11
Rodriguez v. United States,
135 S. Ct. 1609 (2015) ........................................... 7
Segura v. United States,
468 U.S. 796 (1984) .............................................. 8
Texas v. Brown,
460 U.S. 730 (1983) .............................................. 8

iv
United States v. Cooper,
949 F.2d 737 (5th Cir. 1991) .............................. 10
United States v. Jacobsen,
466 U.S. 109 (1984) ............................................... 7
United States v. Noster,
590 F.3d 624 (9th Cir. 2009) ................................. 9
United States v. Place,
462 U.S. 696 (1983) .............................................. 7
Other Authorities
Supreme Court Rule 10 ........................................ 1, 11

INTRODUCTION
Petitioners seek review of an interlocutory and
fact-bound decision of the Eighth Circuit that correctly applies well-established principles governing
the liability of municipalities and associated private
actors for violations of constitutional rights. The Court
should decline to review this case because petitioners
have failed to show any compelling reason to grant the
writ.
First, the petition misstates the primary issue in
this case by focusing on the initial seizure of respondent’s vehicle rather than its duration. The decision below does not conflict with the decisions of this Court
or any other court on the issue whether an excessive
delay in authorizing the return of vehicles seized without a warrant unreasonably infringes possessory interests protected by the Fourth Amendment.
Second, the Eighth Circuit articulated the correct
standards for municipal liability, faithfully applied
those standards to the record before it, and, drawing
all reasonable inferences in plaintiff’s favor, determined that a reasonable jury could find for plaintiff.
Petitioners assert, at most, that the court made erroneous factual findings with respect to certain elements of municipal liability. Even if that were so, this
case would not be worthy of this Court’s review. See S.
Ct. R. 10.
Finally, the Court should deny review at this stage
of the litigation because the case turns on factual disputes that will be resolved at a trial set for April 20,
2020.
For each of these reasons, the petition should be
denied.

2
STATEMENT
In December 2015, an officer of the St. Louis Metropolitan Police Department (SLMPD) responded to a
hit-and-run accident. Based on information from the
victim, the officer suspected that the vehicle that left
the scene was a truck registered to respondent Mary
Meier. The officer instructed a SLMPD clerk to report
the truck as “wanted” on the Regional Justice Information Service (REJIS) network, a computer system
that allows law enforcement agencies in St. Louis
County to share information. Pet. App. A-2–A-3. A
wanted report operates as a request to take the vehicle
into custody. Id. A-8.
On March 17, 2016, an officer of the Maryland
Heights Police Department (MHPD) saw Ms. Meier’s
son, Ben Meier, and a companion sitting in the truck.
The officer ran the license plate on REJIS and saw
that it was wanted by SLMPD. The officer approached
the truck’s occupants, whom he eventually arrested
for reasons unconnected to the wanted report or the
hit-and-run accident. The officer arranged for the
truck to be towed because of SLMPD’s wanted report
and because he was arresting the truck’s occupants.
MHPD dispatch arranged for Doc’s Towing to take the
truck, and the MHPD officer told the driver from Doc’s
Towing that the truck was wanted by SLMPD. Ms.
Meier’s truck was towed to Doc’s Towing, where it was
held. Id. A-3.
SLMPD was notified through REJIS that the truck
had been located and taken to Doc’s Towing. SLMPD
responded that the owner or driver of the vehicle
should be advised to contact the SLMPD detective bureau regarding release of the vehicle. Id. A-3–A-4.

3
SLMPD did not seek a warrant authorizing the continued seizure of Ms. Meier’s truck.
The day after the truck was seized, Ms. Meier and
her son went to Doc’s Towing to get the truck. A Doc’s
Towing employee told them that, although MHPD had
authorized release of the truck, SLMPD had a hold on
it and that Doc’s Towing could not release it without
SLMPD’s authorization. When Ben Meier contacted
SLMPD to ask it to remove the hold, Detective John
Russo explained that, to get the truck back, Ben would
have to come in and answer questions about the accident. Id. A-4. Ben declined to do so, and Doc’s Towing
continued to retain the vehicle pursuant to SLMPD’s
hold. Yet SLMPD neither inspected the vehicle nor
searched it for evidence related to the hit-and-run accident.
About six weeks after the truck was seized, Ms.
Meier’s lawyer obtained a release order from SLMPD
that rescinded the March 17 hold order on the truck.
Pursuant to the release order, Doc’s Towing allowed
Ms. Meier to retrieve the truck after paying a tow fee
and a separate storage fee. The truck had been damaged during its time in storage, however, and an employee of Doc’s Towing had applied for salvage title,
interfering with Ms. Meier’s ability to regain clean title for the truck. Id.
Ms. Meier sued the City of St. Louis and Doc’s Towing under 42 U.S.C. § 1983, alleging, among other
things, that defendants’ prolonged seizure of her vehicle violated her rights under the Fourth and Fourteenth Amendments.1 Specifically, Ms. Meier alleged
Ms. Meier’s complaint also alleges a deprivation of property
without due process and two state law claims, none of which were
considered by the court below.
1

4
that SLMPD lacked probable cause to continue the
seizure of her vehicle for six weeks, and that Doc’s
Towing held her vehicle under color of law because it
did so as a willful participant in SLMPD’s policy of using wanted reports to seize vehicles for extended periods. Pet. App. A-31–A-34.
The district court granted summary judgment to
defendants based on two facts that the court characterized as “undisputed.” Id. A-16. First, the district
court found that MHPD, and not SLMPD, made the
initial seizure, and that Doc’s Towing had not acted in
concert with SLMPD when it retained the truck pending SLMPD’s authorization to release it. Id. A-16. Because the court found that the actions of MHPD and
Doc’s Towing could not be imputed to SLMPD, it held
that neither defendant could be liable on the § 1983
claims as a matter of law. Id. A-19, A-21. The district
court did not “address the issue of whether [Ms. Meier]
established underlying constitutional violations in
connection with the deprivation of her property.”
Id. A-19.
The Court of Appeals for the Eighth Circuit reversed. In a unanimous decision, the court found that
Ms. Meier had adduced sufficient evidence to preclude
summary judgment for defendants and remanded the
case for further proceedings. Id. A-2.
With regard to establishing municipal liability
based on an unwritten policy or custom, the court explained that Ms. Meier would need to show “(1) the
existence of a continuing, widespread, persistent pattern of unconstitutional misconduct by the municipality’s employees; (2) deliberate indifference to or tacit
authorization of such conduct by the municipality’s
policymaking officials after notice to the officials of

5
that misconduct; and (3) that she was injured by acts
pursuant to the municipality’s custom, i.e., that the
custom was a moving force behind the constitutional
violation.” Id. A-5–A-6 (cleaned up and citations omitted). The court held that Ms. Meier had adduced evidence from which a reasonable juror could find each of
these three elements. First, the court noted that Ms.
Meier had presented evidence that SLMPD employees
“regularly” engaged in a “continuing, widespread, persistent practice of using wanted reports to seize vehicles without a warrant as an investigative tool.” Id. A6–A-7. Second, the court found that because two of the
witnesses whose testimony established the existence
of the pattern of unconstitutional misconduct were
policymaking officials, “their statements also demonstrate that SLMPD’s policymaking officials are aware
of this practice.” Id. A-7. Third, the court held that
SLMPD’s custom of using wanted reports and resulting hold orders to seize and retain vehicles without a
warrant caused the violation of Ms. Meier’s constitutional rights.2 Thus, the court concluded that “a reasonable jury could find that Meier’s truck was towed
and held pursuant to SLMPD’s unwritten but widespread and persistent policy of reporting vehicles as
wanted for the purpose of detaining them without a
warrant.” Id. A-8.
Next, with regard to whether Doc’s Towing could
be held liable under § 1983, the court of appeals explained that a private party can act under color of law
Whether the warrantless seizure and its duration violated
the Fourth Amendment turns on whether it was reasonable,
which entails the weighing of various factors. Below, defendants
did not dispute, and the court therefore assumed, “that the seizure of Meier’s truck violated her constitutional rights.” Pet. App.
A-9.
2

6
where it is a willful participant in joint activity with
the governmental entity and there is a close nexus between the government and the private party, as well
as between the government and the alleged deprivation. Id. A-9. The court held that a jury could find such
a nexus in this case because “SLMPD intended Doc’s
Towing to detain Meier’s truck until it obtained the
information it was looking for and authorized the
truck’s release” and “Doc’s Towing understood
SLMPD’s intent and acted accordingly.” Id. A-10. Indeed, the president of Doc’s Towing testified that
SLMPD’s wanted report instructed Doc’s Towing to
hold the truck until SLMPD released it. Thus, the
court concluded that “SLMPD and Doc’s Towing
shared a mutual understanding concerning the truck
and that Doc’s Towing willfully participated in
SLMPD’s policy.” Id.
Petitioners sought rehearing en banc, which was
denied. Id. A-25. Trial is set for April 20, 2020.
REASONS FOR DENYING THE WRIT
I. The decision below does not conflict with the
decision of any other court.
Petitioners’ first question presented asks whether
Ms. Meier suffered a violation of her constitutional
rights if SLMPD had probable cause for the initial seizure of her truck. Below, however, the district court
did not “address the issue of whether plaintiff established underlying constitutional violations in connection with the deprivation of her property,” Pet. App.
A-19, and the Eighth Circuit “assum[ed] that the seizure of Meier’s truck violated her constitutional
rights—an assumption that [SLMPD] [did] not dispute” on appeal. Id. A-9. Because the question was not

7
decided by either court below, the Court should decline to consider it for the first time here.
Furthermore, petitioners rest much of their argument for review of their first question on a misstatement of the conduct challenged by Ms. Meier. Contrary to petitioners’ repeated assertion, Ms. Meier
does not claim that the Fourth Amendment forbids the
warrantless seizure of an automobile in a public place
based on probable cause to believe that the vehicle
was involved in a hit-and-run accident. Rather, Ms.
Meier alleges a violation of her constitutional rights
based on the duration of the warrantless seizure.
Petitioners complain that the Eighth Circuit “paid
no attention to the issue of probable cause for seizure
of the truck in the first place,” Pet. 10, and instead focused on SLMPD’s policy of using wanted reports to
seize and hold vehicles without a warrant “as an investigative tool” to leverage interviews with suspects.
Pet. App. A-6–A-7; see id. A-7 (finding that a SLMPD
detective stated that Ms. Meier’s son would have to
answer SLMPD’s questions about the accident to get
the truck back). The Eighth Circuit had good reason
to focus on that policy, because it is the focus of Ms.
Meier’s claim. And this Court has long recognized that
“a seizure lawful at its inception can nevertheless violate the Fourth Amendment because its manner of execution unreasonably infringes possessory interests
protected by the Fourth Amendment’s prohibition on
‘unreasonable seizures.’” United States v. Jacobsen,
466 U.S. 109, 124 (1984) (citing United States v. Place,
462 U.S. 696, 709–10 (1983) (holding that although
the initial seizure of property was reasonable, the seizure became unreasonable because its duration unduly intruded upon constitutionally protected interests)); see Rodriguez v. United States, 135 S. Ct. 1609,

8
1612–14 (2015) (holding that a lawfully initiated seizure violates the Fourth Amendment if its duration
exceeds the time reasonably necessary to complete the
tasks that justified the warrantless seizure); Segura v.
United States, 468 U.S. 796, 812 (1984) (“Of course, a
seizure reasonable at its inception because based upon
probable cause may become unreasonable as a result
of its duration or for other reasons.”).
Because the constitutional violation at issue here
arises from the prolonged duration of the seizure, petitioners err in asserting that the decision below conflicts with four decisions of this Court addressing the
automobile exception to the warrant requirement of
the Fourth Amendment. See Pet. 14, 22. None of the
decisions that petitioners cite addresses the issue of
excessive delay in releasing a seized vehicle. See Florida v. White, 526 U.S. 559, 566 (1999) (holding that
the Fourth Amendment does not require the police to
obtain a warrant before seizing an automobile from a
public place when they have probable cause to believe
that it is forfeitable contraband); Texas v. Brown, 460
U.S. 730, 741–44 (1983) (holding that the “plain view”
doctrine justified a warrantless seizure of evidence
from an automobile where the evidence was lawfully
viewed and the police had probable cause to believe
the property was illegal drugs); G.M. Leasing Corp. v.
United States, 429 U.S. 338, 351–52 (1977) (holding
that the warrantless seizure of automobiles from a
public place to satisfy tax assessments did not violate
the Fourth Amendment and finding that the owner
had already lost any possessory interest in the property); Chambers v. Maroney, 399 U.S. 42, 52 (1970)
(holding that police with probable cause to conduct a
warrantless search of an automobile may move the car
to another location before conducting the search).

9
Similarly, none of the three circuit court decisions
cited by petitioners conflicts with the decision below.
See Pet. 22–23. United States v. Noster, 590 F.3d 624
(9th Cir. 2009), involved the seizure of a truck that
had been listed as stolen in a statewide database. After police located the truck parked on a public street,
it was impounded and taken to a tow yard, where a
search led to the discovery of an illegal pipe bomb and,
ultimately, to the conviction of the person who had
possessed the truck. Id. at 628–29. That person challenged his conviction based on the theory that the officer who entered the stolen vehicle report into the database lacked probable cause to believe that the truck
was stolen. The Ninth Circuit held that there was no
Fourth Amendment violation because the officer who
entered the stolen vehicle report into the database had
probable cause to believe the truck was stolen and the
officers who seized the truck reasonably relied on the
stolen vehicle database. Id. at 630–33. The court noted
that the plaintiff did not argue that the “continued retention of [the truck] was in any way improper.” Id. at
634. Here, in contrast, Ms. Meier does not argue that
entering a description of her truck into the database
was improper or that the officer who had her truck
towed acted unreasonably. Rather, she challenges the
continued retention of her truck for an improper purpose: to leverage an interview with a suspect.
Bell v. City of Chicago, 835 F.3d 736 (7th Cir.
2016), also cited by petitioners, likewise poses no conflict. Bell was a facial challenge under the Fourth
Amendment to a city ordinance that authorized the
police to impound a vehicle if the police had probable
cause to believe that the vehicle was used in connection with illegal drug activity. The court upheld the
ordinance because it did not authorize warrantless

10
seizures beyond those deemed constitutional because
based on probable cause. Id. at 740. The decision in
Bell has no application here, because Ms. Meier challenges the continued retention of her truck, not its initial seizure.
Similarly, the third case on which petitioners rely
to show a purported conflict, United States v. Cooper,
949 F.2d 737 (5th Cir. 1991), does not address the issue raised by Ms. Meier’s challenge. Id. at 747 (holding that “the police may seize a car from a public place
without a warrant when they have probable cause to
believe that the car itself is an instrument or evidence
of crime”).
Because the courts below have not decided the first
question raised by petitioner and because the decision
below poses no conflict with a decision of this Court or
of the other courts of appeals, the petition should be
denied.
II. The Eighth Circuit’s determination that the
City of St. Louis might be liable under Monell
does not warrant review.
The Eighth Circuit applied the correct analytical
framework when it determined that Ms. Meier adduced sufficient evidence to allow her Monell claim to
go to trial. The court stated that the City could be held
liable only if the alleged constitutional violation was
caused by action taken pursuant to municipal policy.
Pet. App. A-5. That standard flows directly from Monell v. Department of Social Services of City of New
York, 436 U.S. 658, 690–91 (1978). The Eighth Circuit
next stated that, to establish the existence of an unwritten policy, Ms. Meier would have to demonstrate
“(1) the existence of a continuing, widespread, persistent pattern of unconstitutional misconduct by the

11
municipality’s employees; (2) deliberate indifference
to or tacit authorization of such conduct by the municipality’s policymaking officials after notice to the officials of that misconduct; and (3) that she was injured
by acts pursuant to the municipality’s custom, i.e.,
that the custom was a moving force behind the constitutional violation.” Pet. App. A-5–A-6 (cleaned up and
citations omitted). Again, the standard applied by the
court below is faithful to Monell, 436 U.S. at 694 (discussing municipal liability for policy informally
adopted by custom that is the moving force behind the
constitutional violation).
Petitioners do not dispute that the Eighth Circuit
articulated the correct standards for municipal liability. Rather, they challenge the court’s determination
that the facts, viewed in Ms. Meier’s favor, are sufficient to allow a reasonable jury to return a verdict for
Ms. Meier. Even if the court had erred in making those
factual findings, this case would not be worthy of this
Court’s review. See S. Ct. R. 10 (“A petition for certiorari is rarely granted when the asserted error consists
of erroneous factual findings or the misapplication of
a properly stated rule of law.”). But the court did not
err.
Petitioners assert that the court of appeals mistakenly attributed policymaking authority to two of the
City’s witnesses: the training officer who testified that
wanted reports entered into REJIS cause vehicles to
be seized and held for the originating agency, and the
witness designated to testify for SLMPD under Federal Rule of Civil Procedure 30(b)(6), who stated that
entering a wanted report into REJIS is a request that
the vehicle be seized without a warrant and held for
SLMPD. See Pet. App. A-6. According to petitioners,
the Eighth Circuit erred because it did not cite state

12
law establishing that such individuals have policymaking authority. The court did not need to further
analyze that issue, however, because the City conceded the point. Id. 7 (“St. Louis does not contest that
[the two witnesses] are policymaking officials.”). For
this reason, the decision below does not conflict with
City of St. Louis v. Praprotnik, 485 U.S. 112, 124
(1988) (holding that the identification of policymaking
officials is a question of state law).
Petitioners also assert that the Eighth Circuit
erred when it found that Ms. Meier had adduced sufficient facts to show that SLMPD had a custom of using wanted reports to seize vehicles without a warrant
and to hold them until the driver or owner appeared
and answered police questions. Although petitioners
argue that the evidence was insufficient to show that
such action was routine, the court relied on testimony
establishing that SLMPD “regularly” engages in such
action. Pet. App. A-6. Thus, petitioners’ assertion that
municipal liability based on custom “cannot be predicated on a single incident of unconstitutional conduct”
is inapposite. Pet. 20 (citing City of Oklahoma City v.
Tuttle, 471 U.S. 808 (1985)).
Finally, petitioners claim that the Eighth Circuit
erred in finding a causal link between SLMPD’s custom and the unreasonably prolonged seizure of Ms.
Meier’s truck because Doc’s Towing, rather than
SLMPD, held the truck pursuant to SLMPD’s wanted
report and did not release the truck until it received
authorization to do so from SLMPD. Contrary to petitioners’ assertion, the involvement of Doc’s Towing did
not break the causal chain because SLMPD knew that
Doc’s Towing had the truck and was honoring
SLMPD’s hold. Rather than seek a warrant or authorize Doc’s Towing to immediately release the truck,

13
SLMPD prolonged the warrantless seizure as a tactic
to leverage an interview with a suspect. Thus,
SLMPD’s action was the moving force behind the violation of Ms. Meier’s rights, and the Eighth Circuit
correctly held that a municipality can be liable for constitutional violations carried out with the cooperation
of a private actor. See Pet. App. A-9–A-11.
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
GREGORY G. FENLON
601 S. Lindbergh
St. Louis, MO 63131
(314) 862-7999
ggfmoatty@aol.com

MICHAEL T. KIRKPATRICK
Counsel of Record
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
mkirkpatrick@citizen.org

Attorneys for Respondent
February 2020

